            National Aeronautics and Space Administration
                 OFFICE OF INSPECTOR GENERAL


                NASA’s Strategic Sourcing
                       Program




                          OFFICE OF AUDITS
                          JANUARY 15, 2014

IG-14-010
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ACES         Agency Consolidated End User Services
CAO          Chief Acquisition Officer
CFO          Chief Financial Officer
CIO          Chief Information Officer
DOE          Department of Energy
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
GSA          General Services Administration
IT           Information Technology
NSSC         NASA Shared Services Center
OIG          Office of Inspector General
OMB          Office of Management and Budget
SEWP         Solutions for Enterprise-Wide Procurement
TEMS         Telecommunications Expense Management Services
UPS          United Parcel Service, Incorporated


                                                              REPORT NO. IG-14-010
JANUARY 15, 2014




                                                                                           OVERVIEW

                    NASA'S STRATEGIC SOURCING PROGRAM
                                                                                             The Issue
  The Federal Government spends more than $500 billion annually to buy products and
  services in support of its varied missions.1 According to the General Services
  Administration (GSA), historically, Federal agencies have acquired these products and
  services in a highly decentralized manner, resulting in wasteful spending. As a result,
  Federal agencies have been tasked with “buying smarter” – that is, maximizing the value
  of each dollar spent by being intentional in what is purchased, how it is purchased, and
  how the products and services are used. Specifically, over the past 8 years, Federal
  agencies have been encouraged to practice “strategic sourcing” and consolidate their
  spending, either by centralizing their contracting decisions or by using government-wide
  contracts to lower prices and reduce duplication of administration efforts. Since fiscal
  year (FY) 2010, agencies have realized savings of more than $140 million by using
  government-wide contracts for office supplies, which offer prices lower than any single
  agency could negotiate on its own. However, according to the Government
  Accountability Office (GAO), only a small part of the Government’s procurement-related
  spending is managed strategically.2
  In 2005, the Office of Management and Budget (OMB) issued a memorandum
  institutionalizing the strategic sourcing process in Federal agencies. OMB made each
  Federal agency’s Chief Acquisition Officer (CAO), Chief Financial Officer (CFO), and
  Chief Information Officer (CIO) responsible for the overall development and
  implementation of their agency’s strategic sourcing efforts, beginning with an analysis of
  agency procurement patterns (known as a spend analysis) and identification of products
  and services (commodities) for which strategic sourcing should be implemented.
  Because Federal purchasing is decentralized, agencies operating individually instead of
  collaboratively experience significant price variations for the same products or services,
  even with the same contractor. In response to OMB’s directive, GSA launched the
  Federal Strategic Sourcing Initiative in 2005, implementing strategic sourcing solutions
  for the Government that leverage buying power and reduce the cost of procuring common
  products and services.3 According to GSA, the Federal initiative has helped improve the
  management and cost of commonly purchased products and services, such as express and
  ground domestic delivery, office supplies, print management, and wireless
  telecommunications.

  1
      OMB Memorandum, M-13-02, “Improving Acquisition through Strategic Sourcing,” December 5, 2012.
  2
      GAO Testimony, “Strategic Sourcing: Improved and Expanded Use Could Provide Significant
      Procurement Savings” (GAO-13-765T, July 15, 2013).
  3
      GSA launched the Federal Strategic Sourcing Initiative in partnership with the Department of Treasury.




REPORT NO. IG-14-010
                                                                                                    OVERVIEW



     While the Federal Government has made strides in improving its strategic sourcing, the
     GAO reported in September 2012 that agencies are not leveraging their aggregate buying
     power and consequently have achieved only limited savings – less than one-half of
     1 percent of overall procurement spending. According to GAO, a savings rate of
     10 percent of total Federal procurement spending would represent more than $50 billion
     annually.4 In December 2012, OMB issued updated guidance that built upon its existing
     strategic sourcing initiative to encourage agencies wherever possible to join with other
     agencies to negotiate the best deal for the taxpayer.5

     Under the President’s cross-agency priority goal for strategic sourcing, Federal agencies
     are directed to reduce costs by at least 10 percent through strategic sourcing for at least
     two new commodities or services in 2013 and 2014. OMB said agencies could meet this
     goal by leading their own agency-wide strategic sourcing efforts, establishing a new
     inter-agency strategic sourcing vehicle, or participating in another solution that leverages
     the Government’s purchasing power. The directive also requires agencies to increase
     their use of the Federal Strategic Sourcing Initiative by at least 10 percent in both FYs
     2013 and 2014 unless they can show that their current procurement strategy for obtaining
     products and services is more cost effective.

     In 2006, NASA’s Headquarters Office of Procurement established a Strategic Sourcing
     Program to save money by strategically acquiring products and services common across
     the Agency. NASA Procurement officials expected the program to result in a better
     understanding of Agency spending patterns; maximize procurement efficiencies through
     collaborative acquisitions; and achieve better value for products and services while
     satisfying OMB’s strategic sourcing requirements. Because NASA annually spends
     approximately 80 percent of its approximately $17 billion annual appropriated funding
     acquiring products and services, the Agency has the potential to realize significant
     savings through a well-implemented strategic sourcing program.

     Our audit objective was to examine NASA’s Strategic Sourcing Program and determine
     whether it adequately addresses the Federal Strategic Sourcing Initiative and has resulted
     in cost savings for NASA.

                                                                                                 Results

     NASA has failed to develop a robust, Agency-wide strategic sourcing program over the
     past 7 years, thereby missing opportunities to maximize savings by aggregating its
     purchasing power and market position when procuring commodities. While NASA
     4
         GAO, “Strategic Sourcing: Improved and Expanded Use Could Save Billions in Annual Procurement
         Costs” (GAO-12-919, September 20, 2012). In addition, a GAO official testifying before the Senate
         Committee on Homeland Security and Governmental Affairs in July 2013 said that expanded use of
         strategic sourcing could provide significant savings (GAO-13-765T).
     5
         OMB Memorandum M-13-02, “Improving Acquisition through Strategic Sourcing,” December 5, 2012.




ii                                                                                    REPORT NO. IG-14-010
OVERVIEW



  established a Strategic Sourcing Program as required by the 2005 OMB memorandum,
  the Agency never conducted a comprehensive, Agency-wide spend analysis to identify
  additional commodities that could benefit from a more strategic procurement approach.
  Further, though NASA performed limited spend analyses on individual commodities, the
  Agency did not establish requirements regarding how such analyses should be developed,
  analyzed, and used. While NASA officials informed us that they have realized savings
  with regard to specific strategic sourcing initiatives, the Agency does not track
  Agency-wide strategic sourcing efforts to maximize potential cost savings. As a result,
  NASA was unable to determine the extent of any efficiency or cost savings achieved
  through its Strategic Sourcing Program.
  NASA’s Strategic Sourcing Program Poorly Implemented. According to NASA’s
  Strategic Sourcing Program plan, the primary goal of the Program is “to establish a
  process that enables NASA to strategically acquire products and services common across
  the Agency, Centers, or organizations to support the Agency’s mission in a more
  effective and efficient manner.” However, poor development of an Agency-wide plan,
  coupled with the insufficient implementation of key aspects of that plan, has significantly
  impaired NASA’s Strategic Sourcing Program. While NASA developed a Program plan
  to satisfy OMB’s strategic sourcing requirements, the Agency failed to follow critical
  elements of its Program plan – specifically, completing spend analyses and measuring
  performance. Further, without regularly performing a comprehensive spend analysis,
  NASA is unable to review Agency spending patterns for commodities and identify
  potential candidates for strategic sourcing efforts. In addition, limited direction to and
  communication with Center procurement officials regarding strategic sourcing efforts
  together with the Agency’s longstanding culture of Center autonomy has resulted in the
  insufficient implementation of strategic sourcing across NASA.
  Strategic Sourcing Lessons Learned and Best Practices. While NASA’s mission is
  unique, the challenges facing the Agency to maximize its purchasing power are not. To
  gain insight into lessons learned and government best practices, we spoke with
  procurement officials from the Department of Energy (DOE) regarding their
  implementation of strategic sourcing. In spite of challenges similar to those of NASA,
  including geographically disbursed operating locations and significant use of contractors
  to support Agency operations, DOE has implemented a strategic sourcing program that
  has saved the Agency more than $980 million over the past 3 years. DOE officials
  attribute the savings to committed implementation of the Federal Strategic Sourcing
  Initiative, periodic spend analyses, and support by senior DOE officials who track the
  Program’s progress and results.




REPORT NO. IG-14-010                                                                            iii
                                                                                        OVERVIEW



     Management Action

     As stewards of the public trust, NASA officials need to seek out ways to achieve cost
     savings in the procurement process where possible. Clear and strong executive
     leadership is needed to engage procurement personnel at all levels across the Agency to
     identify opportunities to improve procurement practices through strategic sourcing. From
     better identifying Agency-wide spending patterns to taking an enterprise approach to
     procuring products and services, strategic sourcing should become a way of doing
     business at NASA.

     To strengthen NASA’s Strategic Sourcing Program, we recommended that the Assistant
     Administrator for Procurement – with support from the Administrator and CFO – revise
     NASA’s Strategic Sourcing Program plan to: (a) identify and assign specific
     responsibilities for individuals, groups, or organizations within NASA that manage,
     administer, and report strategic sourcing efforts; (b) include a methodology for how
     spend analysis should be developed, analyzed, and used; (c) include a methodology to
     periodically identify Agency-wide strategic sourcing opportunities using current financial
     and procurement management information systems; and (d) require the periodic
     extraction and assessment of Agency-wide, inter-Center, and cross-organizational
     spending data to ensure the Agency is receiving the best value for products and services.
     The Assistant Administrator should also perform a comprehensive Agency-wide spend
     analysis of all procurement activities across NASA in order to identify potential strategic
     sourcing candidates and assess any changes in Agency-wide spending patterns. Further,
     the Assistant Administrator should define and track uniform performance goals and
     measures for NASA’s strategic sourcing activities Agency-wide and make use of the
     metrics a requirement for assessing the success of the Agency’s Strategic Sourcing
     Program.

     The Assistant Administrator should also perform a review to determine if NASA
     organizations are utilizing strategically sourced commodities, such as office supplies and
     contract closeout services, to the greatest extent practicable. Further, the Assistant
     Administrator should develop and communicate the existence of a centralized mechanism
     for providing the NASA procurement community with Agency-wide strategic sourcing
     information to include a listing of all NASA Strategic Sourcing Program efforts that can
     be considered during the procurement planning process to fully leverage existing
     strategic sourcing vehicles. Finally, the Assistant Administrator should incorporate into
     NASA policy the required use of strategic sourcing initiatives to the maximum extent
     possible for NASA acquisitions and require the documentation of decisions made when
     strategic sourcing initiatives are not used.

     In response to our draft report, the Assistant Administrator for Procurement concurred or
     partially concurred with our recommendations to: (1) revise NASA’s Strategic Sourcing
     Plan; (2) define and track uniform performance goals and measures for NASA’s strategic
     sourcing activities; (3) determine if NASA organizations are utilizing strategic sourcing
     commodities to the greatest extent practicable; and (4) develop and communicate the


iv                                                                          REPORT NO. IG-14-010
OVERVIEW



  existence of a centralized mechanism for providing the NASA procurement community
  with Agency-wide strategic sourcing information. We consider these proposed actions
  responsive to our recommendations and will close the recommendations upon completion
  and verification of the actions.

  The Assistant Administrator nonconcurred with our recommendations to perform a
  comprehensive spend analysis of all procurement activities across the Agency. However,
  he noted that NASA is fully committed to continuing its participation in the Federal
  Strategic Sourcing Initiatives and identifying Agency strategic sourcing activities by
  conducting spend analyses on select commodities and services. The Assistant
  Administrator further stated that several NASA centers have begun a comprehensive
  spend analysis of their programs. Although we appreciate the ongoing Center-based
  efforts and the Agency’s commitment to Federal Strategic Sourcing Initiatives, we
  continue to believe that NASA would benefit from an Agency-wide spend analysis and
  therefore the recommendation remains unresolved.

  The Assistant Administrator for Procurement also disagreed with our recommendation to
  incorporate into NASA policy the required use of strategic sourcing initiatives to the
  maximum extent possible, stating that while NASA supports strategic sourcing and
  agrees it offers significant benefits when properly applied, it is premature and possibly
  unnecessary to consider any changes to the NASA Federal Acquisition Regulation (FAR)
  Supplement or other policy to require the use of strategic sourcing initiatives to meet
  NASA's mission needs. Further, the Assistant Administrator noted that OMB has not
  issued regulations requiring the use of Federal Strategic Sourcing Initiative vehicles.
  Because we continue to believe that NASA would benefit from adopting policy requiring
  the use of strategic sourcing initiatives to the maximum extent possible, the
  recommendation remains unresolved.

  Management’s full response is reprinted in Appendix B. Technical comments provided
  by management have also been incorporated, as appropriate.




REPORT NO. IG-14-010                                                                          v
JANUARY 15, 2014




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives _________________________________________ 10

  RESULTS
      NASA’s Strategic Sourcing Efforts Are Disjointed
      and Incomplete _____________________________________ 11

  APPENDIX A
      Scope and Methodology _______________________________ 29
      Review of Internal Controls ____________________________ 30
      Prior Coverage ______________________________________ 30

  APPENDIX B
      Management Comments ______________________________ 32

  APPENDIX C
      Report Distribution ___________________________________ 38




REPORT NO. IG-14-010
JANUARY 15, 2014




                                                                             INTRODUCTION
Background

  The Federal Government spends more than $500 billion annually to buy products and
  services in support of its varied missions.6 According to the General Services
  Administration (GSA), historically Federal agencies have acquired these products and
  services in a highly decentralized manner, resulting in wasteful spending. As a result,
  Federal agencies have been tasked with “buying smarter” – that is, maximizing the value
  of each dollar spent by being intentional in what is purchased, how it is purchased, and
  how the products and services are used. Specifically, over the past 8 years, Federal
  agencies have been encouraged to practice “strategic sourcing” and consolidate their
  spending, either by centralizing their contracting decisions or by using government-wide
  contracts to lower prices and reduce administrative duplication. For example, since fiscal
  year (FY) 2010, agencies have realized cost savings of more than $140 million using
  government-wide contracts for office supplies, which offer prices lower than any single
  agency could negotiate on its own. However, according to the Government
  Accountability Office (GAO), only a small part of the Government’s half trillion dollars
  in procurement-related spending is managed strategically.7

  In May 2005, the Office of Management and Budget (OMB) issued a memorandum
  institutionalizing the strategic sourcing process across the Government. Strategic
  sourcing is a collaborative and structured process of critically analyzing an organization’s
  spending and using this information to make business decisions about acquiring products
  and services (commodities) more effectively and efficiently. The OMB memorandum
  required agencies to work together to develop innovative sourcing strategies that would
  allow the Government to leverage its vast buying power. OMB made each Federal
  agency’s Chief Acquisition Officer (CAO), Chief Financial Officer (CFO), and Chief
  Information Officer (CIO) responsible for the overall development and implementation of
  their agency’s strategic sourcing efforts. According to OMB, this effort was to begin
  with a spend analysis that would help each agency understand its spending patterns and
  provide the information needed to make smarter business decisions about acquiring
  commodities more effectively and efficiently. After conducting this analysis, agencies
  were directed to identify three potential commodities and implement an agency-wide
  strategic sourcing plan to acquire them.

  In response to OMB’s directive, GSA launched the Federal Strategic Sourcing Initiative
  in November 2005, with the purpose of awarding multiple acquisition vehicles to
  leverage buying power and reduce the cost of procuring common products and services

  6
      OMB Memorandum M-13-02, “Improving Acquisition through Strategic Sourcing,” December 5, 2012.
  7
      GAO, “Strategic Sourcing: Improved and Expanded Use Could Provide Significant Procurement
      Savings,” (GAO-13-765T, July 15, 2013).



REPORT NO. IG-14-010                                                                                  1
                                                                                                 INTRODUCTION



    across the Government.8 In May 2007, OMB issued a follow-up memorandum in which
    it strongly encouraged agencies to tap into government-wide acquisition vehicles for
    several common commodities:
             express and ground domestic delivery services;
             office supplies;
             telecommunications expense management; and
             print management, including printers and copiers.

    The memorandum required agencies to justify any deviations from the use of
    government-wide solutions for these commodities.
    Further, in 2008, GSA identified six key factors for successfully implementing strategic
    sourcing.
          1. Strong senior leadership and agency commitment. Senior leadership support and
             buy-in is needed to create a sense of urgency and ensure broad support. Agencies
             must be willing to embrace the strategic sourcing concept and commit the Agency
             to use strategic sourcing solutions.
          2. Resource commitment. A level of manpower and dollars will be required to
             ensure adequate attention is given to all aspects of the program.
          3. Qualified resources and training. The transformational and technical nature of
             strategic sourcing requires establishment of stringent criteria to select individuals
             to fill critical roles in the program.
          4. Communication. A comprehensive and on-going communication process is
             critical to ensuring understanding of the Federal Strategic Sourcing Initiative and
             strategic sourcing more generally.
          5. Alignment of incentives with program goals. Metrics and targets are needed and
             must be incorporated into individual performance measures to ensure program
             progress and accountability.
          6. Spend visibility and analysis. Agencies must gain greater visibility into their
             spending patterns and use data analysis to facilitate better business decisions.
    While the Federal Government has made strides in strategic sourcing over the past
    8 years, GAO reported in 2012 that the Government is still not leveraging its aggregate
    buying power and that most agencies have not fully adopted a strategic sourcing
    approach in their procurement activities. In December 2012, OMB issued updated
    guidance requiring agencies to designate a Strategic Sourcing Accountable Official with
    authority to coordinate their agency’s internal strategic sourcing activities and coordinate
    participation in government-wide procurement efforts.
    8
        GSA launched the Federal Strategic Sourcing Initiative in partnership with the Department of Treasury.




2                                                                                       REPORT NO. IG-14-010
INTRODUCTION



  Under the President’s cross-agency priority goal for strategic sourcing, Federal agencies
  are directed to reduce costs by at least 10 percent through strategic sourcing for at least
  two new commodities or services in both FYs 2013 and 2014. OMB said agencies could
  meet this goal by leading agency-wide strategic sourcing efforts, establishing a new inter-
  agency strategic sourcing vehicle, or participating in another solution that leverages the
  Government’s buying power and reduces the cost to the taxpayer. In addition, agencies
  were required to increase their use of Federal Strategic Sourcing Initiative procurement
  vehicles by at least 10 percent in FYs 2013 and 2014 unless they could demonstrate that
  their current spending patterns on similar products and services was more cost-effective.

  While OMB’s 2012 guidance imposed requirements on all Federal agencies, it imposed
  additional responsibilities on a small number of agencies that spend a significant amount
  of their budget on procurements. As one of these agencies, NASA was directed in the
  2012 memorandum to participate on the Strategic Sourcing Leadership Council chaired
  by OMB’s Office of Federal Procurement Policy, a group tasked with leading the
  Government’s efforts to increase government strategic sourcing initiatives.

  Government-Wide Vehicles for Strategic Sourcing. As previously mentioned, GSA
  has been integral in the development of the Federal Strategic Sourcing Initiative and
  since 2005, has developed strategic sourcing solutions for the Government for a variety
  of commonly purchased commodities, including domestic delivery services, office
  supplies, wireless telecommunications management services, and print management.

  Domestic Delivery Services. In FY 2006, GSA entered into a fixed-price agreement with
  FedEx Corporation available to all Federal agencies for express and domestic ground
  delivery services for small packages. In FY 2009, GSA entered into a second domestic
  delivery contract with United Parcel Service, Incorporated (UPS) for packages under 150
  pounds. According to GSA, under the UPS contract, agencies save up to 34 percent
  compared to GSA scheduled rates, and up to 7 percent compared to rates in the 2006
  FedEx agreement. In addition, both agreements enable agencies to avoid fuel surcharges
  on parcel shipments, streamline their acquisition process and reduce redundant contracts
  across the Government, and receive comprehensive reports that can be used to
  demonstrate progress towards meeting OMB’s savings targets. The domestic delivery
  solution also employs a dedicated customer service team to minimize agency-specific
  administrative overhead.

  Office Supplies. In 2007, GSA entered into agreements with multiple vendors to create a
  strategic sourcing solution for office supplies. Three years later, GSA entered into a
  second Federal Strategic Sourcing Initiative solution with the award of 15 blanket
  purchase agreements, 13 of which went to small businesses. Under the blanket purchase
  agreements, discounts increase as purchases increase across the Federal Government.




REPORT NO. IG-14-010                                                                            3
                                                                                                   INTRODUCTION



    Wireless Telecommunications Expense Management Services.9 In January 2008, GSA
    awarded three agreements under its Telecommunications Expense Management Services
    (TEMS) solution to reduce wireless costs without changing an agency’s existing service
    plans. According to GSA, TEMS helps Federal agencies optimize rate plans, identify
    inventory and billing errors, eliminate unused telephone lines, improve security controls,
    and monitor spending. GSA claims that agencies using TEMS save on average
    26 percent of their total wireless spending. In addition, the TEMS provider over the past
    3 years has saved the Federal Government more than $6.9 million and reduced the
    monthly average cost per unit for service plans from approximately $70 to $48.
    Print Management. In September 2011, GSA awarded 11 agreements under its print
    management solution covering two broad areas: Fleet Assessment, which offers data
    collection, spend analysis, and cost reduction services, and Device Plus, which provides
    document imaging, usage reporting, and maintenance and repairs. According to GSA,
    the print management solution helps agencies reduce printing and copying expenses and
    streamline the acquisition process.
    In addition to these four strategic sourcing solutions, GSA implemented the
    SmartBUY (2.0) solution in August 2013, which allows Federal, state, local, and tribal
    governments to pay less for software and support services through a series of blanket
    purchase agreements for commercial off-the-shelf software. Further, GSA is working to
    develop a Federal Strategic Sourcing Initiative commodity solution for Information
    Resources. The Information Resources solution will assist agencies in procuring an array
    of books, electronic databases, and library services.
    NASA’s Organizational Structure. NASA consists of a Headquarters Office in
    Washington, D.C.; nine geographically dispersed Centers; and the Jet Propulsion
    Laboratory, a Federally funded research and development center operated under contract
    by the California Institute of Technology.10 Historically, NASA has operated as a
    decentralized organization in which its Centers and program managers are given
    significant autonomy to accomplish Agency missions. From a macro perspective,
    NASA’s organizational structure has three levels: Agency or “corporate” management,
    program or project management, and Center management.
    Agency management, including the Administrator and Deputy Administrator, is located
    primarily at NASA Headquarters and is responsible for providing NASA’s strategic
    direction, top-level requirements, schedules, and budgets. Also part of the Headquarters
    operation is the Mission Support Directorate and the Offices of the Chief Scientist, Chief
    9
         On May 22, 2013, GSA reported that a new wireless solution was available for use, replacing the
         previous telecommunications expense management services (TEMS) solution. GSA anticipates that
         Wireless will improve the procurement and management of wireless services across the Government.
         We continue to reference TEMS throughout this report, as the new solution was put into place after the
         completion of our fieldwork.
    10
         NASA also has six supporting facilities and the NASA Shared Services Center, a partnership between
         NASA and a contractor to consolidate support functions such as financial management, human resources,
         information technology, and procurement.




4                                                                                         REPORT NO. IG-14-010
INTRODUCTION



  Technologist, Chief Engineer, Chief Health and Medical Officer, Chief of Safety and
  Mission Assurance, CFO, and the CIO. The Office of Procurement, tasked with
  implementing the NASA’s Strategic Sourcing Program, is part of the Mission Support
  Directorate.

  NASA has four Mission Directorates – Aeronautics Research, Human Exploration and
  Operations, Science, and Space Technology – each led by an Associate Administrator.
  The Associate Administrators, who are located at NASA Headquarters, are responsible
  for managing their Directorate’s portfolio of programs and projects and have ultimate
  responsibility for their projects’ mission success.

  NASA Centers are led by Directors responsible for managing Center operations and
  determining how best to support the programs and projects located there. The Associate
  Administrators of the Mission Directorates depend on Center Directors to provide the
  human and facility resources needed to execute Directorate programs and projects.
  Associate Administrators do not have decision-making authority regarding the day-to-day
  operations of the Centers, and Center Directors do not provide programmatic direction to
  Agency projects. The Mission Directorate Associate Administrators and the Center
  Directors report to NASA’s Associate Administrator, the most senior civil servant at the
  Agency. Figure 1 depicts NASA’s organizational structure.




REPORT NO. IG-14-010                                                                         5
                                                                                                INTRODUCTION



                                Figure 1. NASA Organizational Structure




    Source: NASA.

    Procuring Commodities at NASA. The NASA Headquarters Office of Procurement is
    charged with ensuring the Agency executes its mission successfully by effectively and
    efficiently managing the acquisition process. To meet this goal, the Headquarters
    Procurement Office issues Agency-wide policy guidance, establishes procurement-related
    regulations, and approves procurements of $50 million or more through its Master Buy
    Plan. Specifically, the Plan requires Centers to receive approval from the Headquarters
    Office of Procurement for all acquisitions expected to equal or exceed $50 million,
    including supplemental agreements, letter contracts, undefinitized contract actions,
    Announcements of Opportunity, and acquisitions through or from other Government
    agencies.11
    The NASA Shared Services Center (NSSC) supports the Procurement Office in this role
    and awards many of the Agency’s enterprise-wide contracts and agreements. Centers
    manage their own budgets and procure mission-related and operational commodities
    11
         In addition, Headquarters also approves all new procurements for human space flight hardware or human
         space flight systems development, production, or processing expected to exceed $10 million.




6                                                                                      REPORT NO. IG-14-010
INTRODUCTION



  through their respective Center-based Offices of Procurement or through the NSSC.
  While Mission Directorates also receive their own budget allocation, they generally
  utilize the resources of Center Procurement Offices to acquire products and services.

  The NASA Annual Procurement Report divides Agency acquisitions into three
  categories: (1) research and development, (2) services, and (3) supplies and equipment.
  The research and development category includes procurements that advance the
  Agency’s research agenda in areas such as aeronautics, space science, and space flight.
  The services component includes professional, administrative, management support,
  maintenance, telecommunications, transportation, travel, and relocation services.
  Supplies and equipment includes space vehicle hardware, automated data processing
  equipment, software, and laboratory equipment. Figure 2 provides a breakout of NASA
  acquisitions by component for FYs 2010 through 2012.

                              Figure 2. NASA Acquisitions by Category


                  $10,000.0       $8,023.9              $8,238.5              $8,738.3
                                          $7,671.9
                   $8,000.0                                     $6,756.2           $6,333.4

                   $6,000.0
   $ (Millions)
                   $4,000.0
                                             $1,231.3              $1,085.4              $1,347.1
                   $2,000.0

                        $-
                                    2010                 2011                  2012
                    Research & Development           Services       Supplies and Equipment

  Source: NASA Annual Procurement Report.

  NASA’s Strategic Sourcing Program. NASA’s CFO serves as the Chief Acquisition
  Official (CAO) responsible for developing and managing its Agency-wide Strategic
  Sourcing Program. The Assistant Administrator for Procurement serves as the Deputy
  CAO and the Strategic Sourcing Accountable Officer and is responsibe for developing
  and implementing the Agency’s Strategic Sourcing Program efforts, representing NASA
  at intra-Agency meetings and on the Strategic Sourcing Leadership Council, and
  responding to OMB data calls on programmatic results. When requested, the NSSC
  conducts data analysis in support of Agency initiatives. Further, analysis may be
  performed in support of activities directly under the responsibility of the NSSC. Figure 3
  illustrates NASA’s strategic sourcing governance structure.




REPORT NO. IG-14-010                                                                                7
                                                                                                                    INTRODUCTION




                    Figure 3. NASA’s Strategic Sourcing Governance Structure
                                                  Chief Acquisition Officer
                           (Designated by OMB to lead Agency strategic sourcing efforts; appoints Agency
                                                   POC for strategic sourcing)

               Deputy Chief Acquisition Officer – Assistant Administrator for Procurement
                                 (CAO responsibilities delegated for execution and implementation)




                                 Agency Strategic Sourcing Point of Contact (POC)
                    (Responsible for overall development and implementation of Agency strategic sourcing efforts;
                      represents Agency on intra-agency groups; submits reports to OMB; reports to the Assistant
                                                   Administrator for Procurement)




                                             Agency Strategic Sourcing Team
               (Establishes direction of NASA's Strategic Sourcing Plan, collaborates with key stakeholders, develops
                policies and monitors strategic sourcing activities. This team is comprised of representatives from the
                CFO; CIO; General Counsel; Office of Small and Disadvantaged Business Utilization (OSDBU) and
                other key organizations as appropriate. The team is chaired by the Agency Strategic Sourcing POC.)




                                               Commodity Working Groups

                (Ad hoc groups established to develop optimal strategies for analogous categories of commodities.
                Membership is comprised of key representatives from end user organizations; requirements owners;
                       procurement; General Counsel; the NSSC; CFO; CIO and OSDBU as appropriate.)




    Source: NASA.

    In 2006, NASA’s Office of Procurement issued guidance on its newly developed
    Strategic Sourcing Program, which included a five-stage methodology: (1) identification,
    (2) strategy development, (3) strategy implementation, (4) management and
    administration, and (5) performance measurement. The goal of NASA’s Strategic
    Sourcing Program was to better understand Agency spending patterns, maximize
    efficiencies through collaborative acquisitions, and achieve better value for products and
    services while at the same time satisfying OMB’s strategic sourcing requirements.
    Because NASA spends approximately 80 percent of its funding on acquisitions, the
    Agency has the potential to realize significant savings through strategic sourcing.
    NASA’s Strategic Sourcing Initiatives. In response to early OMB requirements, NASA
    identified three commodities it could purchase more effectively and efficiently through
    strategic sourcing. NASA subsequently entered into a contract and agreement,
    respectively, in support of two of those commodities: (1) Information Technology (IT)


8                                                                                                        REPORT NO. IG-14-010
INTRODUCTION



  Infrastructure to include desktop computer services, wireless telecommunications
  services, printers, and multifunction devices, and (2) domestic courier services through
  the Federal Strategic Sourcing Initiative blanket purchase agreement. For the third
  commodity – protective services – NASA encountered bid protests after awarding an
  Agency-wide contract, which contributed to the decision to continue using Center-based
  contracts for those requirements.
  NASA has since reported other strategically sourced commodities to OMB, including
  office supplies, software licenses, and contract closeout and procurement support
  services. Further, NASA considers its multi-award Government-Wide Acquisition
  Contract vehicle for acquiring IT products and services (known as the Solutions for
  Enterprise-Wide Procurement or SEWP) to be one of its largest strategic sourcing
  initiatives. According to NASA officials, the success of the SEWP program resulted in
  OMB designating the SEWP team responsibility for leading the development of the
  Federal Strategic Sourcing Initiative for government-wide procurement activity related to
  laptops/desktops. See Table 1 for a description of examples of NASA strategic sourcing
  initiatives.

                     Table 1. Examples of NASA Strategic Sourcing Initiatives
                                Award/Implementation
          Commodity                                                      Description
                                       Date
   Agency Consolidated End        December 27, 2010     Provides a consolidated solution for delivering
   User Services                                        end-user IT services across the Agency.
   Express and Domestic             May 13, 2010        Provides discounts for express and ground
   Ground Delivery Services                             delivery services.
   Office Supplies                  March 21, 2011      Provides discounts for various office supplies.
   Enterprise Software                First award       Provides support to consolidate software
   Licenses                       December 19, 2008;    license contracts and reduce administrative
                                  multiple subsequent   costs.
                                        awards
   Contract Closeout and           February 1, 2013     Provides closeout services for NASA
   Procurement Support                                  contracts, purchase orders, grants, and
   Services                                             cooperative agreements.
   IT Solutions for                 First started in    Provides IT products and services including
   Enterprise-Wide                1993; with multiple   tablets, desktops, servers, IT peripherals, and
   Procurement (SEWP)             subsequent awards     network equipment in addition to installation,
                                                        training, and maintenance.
  Source: NASA.

  Benchmarking. Like NASA, other Federal agencies face challenges related to
  decentralized management structures and a culture of autonomy among components that
  add a layer of complexity to their strategic sourcing efforts. To gain insight into lessons
  learned and industry best practices, we spoke with procurement officials from the
  Department of Energy (DOE) regarding their experiences with strategic sourcing. We
  selected this organization based on its similarity to NASA in size, organizational
  structure, and geographic dispersion.


REPORT NO. IG-14-010                                                                                      9
                                                                                   INTRODUCTION



     Headquartered in Washington, D.C., DOE has three major subordinate organizations that
     manage 11 field offices, 4 power administration facilities, and 21 government-owned,
     contractor-operated laboratories and technical centers located across the country. Similar
     to NASA, DOE has not centralized management of its procurement functions; instead,
     each organization has its own procurement staff that operates independently of other
     DOE components. Specifically, DOE has 12 independent procurement offices at field
     locations throughout the United States staffed with civil service employees who perform
     a wide range of procurement functions, including strategic sourcing actions. According
     to DOE officials, the Department spends approximately $25 billion annually on
     commodities with close to 85 percent obligated for contracts to manage and operate DOE
     facilities.

     Even though DOE operates a decentralized organization, the Department has created a
     Strategic Programs Division within its Headquarters Office of Acquisitions and Project
     Management responsible for the Agency’s strategic sourcing initiatives.

Objectives

     We initiated this audit to determine whether NASA has implemented a strategic sourcing
     program that adequately addresses the Federal Strategic Sourcing Initiative and whether
     the Program has resulted in cost savings. See Appendix A for details of the audit’s scope
     and methodology, our review of internal controls, and a list of prior coverage.




10                                                                         REPORT NO. IG-14-010
RESULTS




                              NASA’S STRATEGIC SOURCING EFFORTS ARE
                                         DISJOINTED AND INCOMPLETE

             Because NASA has failed to develop a robust, Agency-wide strategic sourcing
             program over the past 7 years, it has missed opportunities to maximize savings by
             aggregating the Agency’s substantial purchasing power and market position when
             procuring commodities. This resulted from the poor development and
             implementation of an Agency-wide plan as well as limited Agency-wide
             communication and senior-level management commitment. While NASA
             established a plan to manage its strategic sourcing program as required by OMB’s
             2005 memorandum, the Agency never conducted a comprehensive Agency-wide
             “spend analysis” to identify additional commodities that could benefit from a more
             strategic approach to procurement. Further, while NASA performed limited spend
             analyses on several individual commodities, the Agency did not establish
             requirements regarding how the analysis should be developed, analyzed, and used.
             While NASA officials informed us that they have realized savings with regard to
             specific strategic sourcing initiatives, the Agency does not track Agency-wide
             strategic sourcing efforts to maximize potential cost savings. As a result, NASA was
             unable to demonstrate the extent of efficiency or cost savings achieved through its
             Strategic Sourcing Program.


NASA’s Strategic Sourcing Program Poorly Developed and
 Implemented

  According to Headquarters Procurement guidance, the primary goal of NASA’s Strategic
  Sourcing Program is “to establish a process that enables NASA to strategically acquire
  products and services common across the Agency, Centers, or organizations to support
  the Agency’s mission in a more effective and efficient manner.”12 However, poor
  development of an Agency-wide plan, coupled with the insufficient implementation of
  key aspects of that plan, has significantly impaired NASA’s Strategic Sourcing Program.
  NASA developed the Program plan to begin with the analysis of the Agency’s
  procurement activities (spend analysis), carry through contract award and management,
  and end with measurement of performance results. However, NASA failed to follow
  critical elements of its plan – specifically, the spend analysis and performance
  measurement. In addition, limited direction to and communication with its decentralized
  procurement community regarding strategic sourcing initiatives, coupled with a historic
  culture of autonomy among the Centers, has resulted in the insufficient implementation
  of strategic sourcing across NASA.


  12
       NASA Strategic Sourcing Program plan, January 2006.




REPORT NO. IG-14-010                                                                           11
                                                                                           RESULTS




     Weaknesses in Planning and Implementation of Spend Analysis. One of the first
     steps in NASA’s Strategic Sourcing Program required a spend analysis to identify
     potential candidates for strategic sourcing. However, we found that while NASA
     performed targeted or commodity specific spend analyses for a small number of
     commodities, it did not conduct analyses for the majority of commodities acquired by the
     Agency, including some that were ultimately sourced strategically. We also found that
     NASA’s Program plan does not identify a standard methodology for performing the
     required spend analysis. Specifically, the existing plan does not identify or quantify what
     acquisition data is to be used in completing the spend analysis, what systems are
     approved for use in obtaining the necessary data, who is responsible for performing the
     analysis, or how often the analysis should be performed. Further, NASA’s plan does not
     include a requirement to review Agency-wide spending patterns to ensure all
     commodities with potential savings that could be included in the strategic sourcing
     initiative are in fact considered for this effort. As a result, the Agency is likely missing
     opportunities for significant savings through other commodities ripe for strategic
     sourcing.

     Comprehensive and Periodic Spend Analysis Required. OMB’s May 2005 memorandum
     describes the importance of performing a spend analysis and the identification of
     commodities for which strategic sourcing should be implemented to help make business
     decisions about acquiring commodities more effectively and efficiently. Understanding
     organizational spending patterns therefore requires comprehensive and periodic spend
     analyses.

     A spend analysis enables agency officials to see how much their organization spent each
     year, what was purchased and from whom, and who was purchasing it. Spend analysis is
     an important driver in an organization’s strategic acquisition planning efforts and helps
     monitor trends such as participation by small and minority-owned businesses. Figure 4
     illustrates GSA’s overview of the strategic sourcing process from an organization-wide
     spend analysis through contract award and administration.




12                                                                           REPORT NO. IG-14-010
RESULTS



                       Figure 4. Overview of the Strategic Sourcing Process




  Source: GSA.

  Establishing a spend analysis program is not without its challenges. According to a 2004
  GAO report, organizations historically have encountered difficulties in accumulating
  sufficient data from their internal financial systems either because the systems do not
  capture all of an organization’s purchases or because procurement systems used by
  different organizational units are not connected.13 GAO found that because
  comprehensive data was not available, organizations have had to contend with databases
  that include listings of items and suppliers that in reality are identical to each other but
  are listed under different names.
  NASA Does Not Perform Comprehensive or Periodic Spend Analysis. NASA has not
  performed nor does it require a comprehensive, Agency-wide analysis of its acquisition
  data to determine the feasibility of using strategic sourcing to save money when acquiring
  its commodities. Further, NASA has not performed nor does it require periodic spend
  analysis for its established strategic sourcing initiatives. While a limited, one-time spend
  analysis was conducted for several commodities such as protective services and
  enterprise software licenses, we found NASA’s efforts over the past 7 years fell far short
  of what it would take to develop a comprehensive and effective strategic sourcing
  program.
  Although NASA has not conducted a comprehensive, Agency-wide spend analysis,
  individual NASA Centers and the NSSC have performed limited spend analyses of
  certain commodities. According to an NSSC procurement officer, in 2010, NSSC
  officials performed a spend analysis of several commodities, including laboratory and
  electronic equipment and propellant. However, these analyses were not conducted under
  the auspices of the Strategic Sourcing Program. Rather, the NSSC performed this review
  to better understand the Agency’s portfolio of simplified acquisitions in an effort to



  13
       GAO, “Best Practices: Using Spend Analysis to Help Agencies Take a More Strategic Approach to
       Procurement” (GAO-04-870, September 2004).




REPORT NO. IG-14-010                                                                                   13
                                                                                                           RESULTS



     become the lead office responsible for handling these procurements.14 Consequently,
     these analyses did not result in the adoption of any commodities for strategic sourcing.
     Further, since the 2010 spend analyses were one-time events, the Agency is missing
     opportunities to assess on a routine basis the viability of strategically sourcing these
     commodities.

     NASA’s Enterprise Software Management Team at the NSSC has performed spend
     analysis on newly consolidated software license agreements; however, this analysis is
     also not routinely performed. We also found that NASA did not conduct an Agency-
     wide spend analysis for two Federal Strategic Sourcing Initiative solutions adopted by
     NASA for office supplies and domestic delivery services. In both of these cases, NASA
     relied on GSA provided spending data for these two Federal Strategic Sourcing
     Initiatives, which did not include NASA’s purchase of the commodities through purchase
     card transactions, support service contracts, and other agreements. Agency procurement
     officials informed us that they believe this effort sufficed as a “spend analysis”; however,
     in line with the previously referenced GSA and GAO guidance on the conduct of a spend
     analysis, we disagree that the results of these analyses were comprehensive or sufficient
     in nature, given the exclusion of other critical data elements.

     As a result, it is our view that NASA has not identified its total spending for these
     commodities and is not able to determine whether the use of the adopted Federal
     Strategic Sourcing Initiative solutions actually provides the best value to the Agency.
     Additionally, NASA did not perform a spend analysis for print management and wireless
     telecommunications expense management services, the two Federal Strategic Sourcing
     Initiative solutions NASA chose not to adopt because alternative strategic sourcing
     initiatives for those commodities were already in place. Again, without performing this
     analysis, the Agency cannot ensure that its existing initiatives for print management and
     wireless telecommunications management provide the best value to the Agency. Table 2
     summarizes the status of spend analyses at NASA for select strategic sourcing initiatives.




     14
          Simplified acquisition procedures are the methods prescribed in FAR Part 13 for purchasing supplies or
          services. They are designed for relatively simple Government requirements, and their use is subject to
          designated dollar thresholds not to exceed $150,000.




14                                                                                        REPORT NO. IG-14-010
RESULTS



          Table 2. Spend Analysis for Select NASA Strategic Sourcing Initiatives

      Strategic Sourcing          Spend Analysis
                                                                       Justification
          Initiatives               Performed
   Initiatives Implemented
   Agency Consolidated End             No          The ACES contract was awarded as a replacement
   User Services (ACES)                            to the prior end user services contract; as a result, no
                                                   spend analysis was performed to determine the
                                                   appropriateness of strategically sourcing this
                                                   commodity.
   Federal Strategic Sourcing          No          NASA relied on spending data provided by GSA; no
   Initiative – Express and                        additional spend analysis was performed of NASA’s
   Ground Delivery Services                        Agency-wide spending for this commodity.
   Federal Strategic Sourcing          No          NASA relied on spending data provided by GSA; no
   Initiative – Office Supplies                    additional spend analysis was performed of NASA’s
                                                   Agency-wide spending for this commodity.
   Enterprise License                  Yes         An Agency-wide analysis was only performed on
   Management Team                                 newly consolidated enterprise software licenses.

   Contract Closeout and               Yes         An Agency-wide analysis was only performed for
   Procurement Support                             the addition of procurement support services and
   Services                                        not for the contract closeout services.
   Solutions for Enterprise-           Yes         The SEWP contract is currently in its fourth
   Wide Procurement (SEWP)                         generation and has been in existence since 1993,
                                                   prior to the establishment of the Agency’s Strategic
                                                   Sourcing Program.
   Initiatives Not Implemented
   Federal Strategic Sourcing          No          NASA chose to use the ACES contract instead of
   Initiative – Wireless                           TEMS for this initiative. However, a spend analysis
   Telecommunications                              was not performed to make this determination.
   Expense Management
   Services (TEMS)
   Federal Strategic Sourcing          No          NASA chose to use the ACES contract instead of
   Initiative – Print                              Print Management for this initiative. However, a
   Management                                      spend analysis was not performed to make this
                                                   determination.
  Source: NASA.
  According to officials in the Headquarters Office of Procurement, neither NASA nor
  GSA has systems that adequately capture procurement data by commodity or contain
  reliable procurement data to facilitate routine or comprehensive spend analysis. Further,
  Headquarters Procurement officials stated that spending for these commodities is
  immaterial when compared to the amount spent under the Agency’s larger support
  service or system development contracts awarded by NASA’s Mission Directorates and
  Centers. Agency officials also said that the role of Headquarters Procurement is to
  provide guidance to Centers with regard to strategically sourcing commodities and not to
  monitor Agency-wide spend data or perform commodity-specific spend analysis. Rather,


REPORT NO. IG-14-010                                                                                          15
                                                                                                              RESULTS



     they said that such a spend analysis is part of the acquisition planning process and should
     be conducted by individuals directly responsible for purchasing the commodities.
     NASA Lacks Adequate Spend Analysis Methodology. While NASA’s Program plan
     identifies the need for commodity-specific spend analysis, the Agency has not established
     a clear methodology regarding when a spend analysis should be performed, who would
     perform the analysis, or the level or scope of the analysis. The only information in
     NASA’s Strategic Sourcing Program plan describes the generic requirement and benefits
     of performing such analysis and does not provide specific details such as how or when a
     spend analysis should be performed. As a result, spend analyses are not consistently
     performed across the Agency, limiting identification of new strategic sourcing
     opportunities or other necessary procurement modifications. Headquarters Procurement
     officials said they are in the process of revising the January 2006 version of NASA’s
     Strategic Sourcing Program plan with a targeted completion date in FY 2013; however,
     as of mid-September 2013, the Agency had not yet completed this revision and was
     targeting a new completion date of December 2013.
     Performance Measurement and Utilization of Strategic Sourcing. A critical element
     of NASA’s Strategic Sourcing Program is the measurement of strategically sourced
     commodities to determine the success of the Agency’s efforts. However, we found that
     NASA has not established specific performance metrics to measure and assess the
     effectiveness of the program and therefore cannot regularly measure the performance of
     strategic sourcing initiatives.
     Insufficient Tracking and Measurement of Strategic Sourcing Performance. We found
     that, in line with its Program plan, NASA relies on Center-based acquisition officials to
     measure the success of its strategic sourcing initiatives; Headquarters officials do not
     involve themselves in this analysis and do not hold Center procurement officials
     responsible for annually reporting on each initiative’s performance, as required in the
     Program plan. In our view, this limited involvement by Headquarters Procurement
     officials in tracking the Agency’s strategic sourcing performance has led to the lack of
     performance measurement at the Center-level and limited awareness of Agency-wide
     programmatic success.
     NASA’s Strategic Sourcing Program plan states that metrics vary by commodity and are
     highly dependent on the types of data available for measurement. Further, the plan
     specifies that the specific method of measuring performance and therefore savings is
     determined by the commodity working group established to develop and implement each
     sourcing strategy.15 We reviewed the sourcing strategies for four of NASA’s initiatives
     to identify the metrics the Agency had established to measure the impact of strategic
     sourcing on the purchase of commodities. Further, we analyzed the metrics established
     for these initiatives to determine whether strategic sourcing metrics for core performance
     elements had been consistently established across Agency contracts.
     15
          Commodity-specific sourcing strategies are developed based on a comprehensive understanding of
          internal requirements, usage analysis, and external market analysis, and include the goals, objectives, and
          proposed approach for each overall effort, including performance measures.




16                                                                                           REPORT NO. IG-14-010
RESULTS



  In this analysis, we sought to examine the following five performance metrics, which
  align with both the general goal of the Agency’s Strategic Sourcing Program plan as well
  as industry goals for strategic sourcing:
         1. cost savings,
         2. resource savings,
         3. increased initiative utilization,
         4. enhanced achievement of socio-economic goals, and
         5. improved processes for managing spending.
  Our review found that Agency officials established performance metrics for only two of
  four commodities reviewed. While metrics existed for the ACES and closeout contracts,
  none were focused on measuring performance as strategically sourced commodities.16 In
  addition, no strategic sourcing performance metrics were identified for the SEWP or
  enterprise software license contracts. An NSSC procurement official informed us that
  each contractor’s performance is assessed and recorded in the Contractor Performance
  Assessment Reporting System, a suite of web-enabled applications used to document
  contractor and grantee performance information. However, this system would not
  capture performance metrics established to measure savings attributable to strategically
  sourcing each commodity. In addition, even though contract performance information
  for the SEWP and enterprise software license contracts is reported to the NASA Office of
  the CIO, this information is not specific enough to measure the success of any strategic
  sourcing initiatives.
  According to Headquarters Procurement officials, NASA relies on contract performance
  metrics developed and monitored by procurement officials at the individual Centers
  because of the disparate nature of the data involved. Headquarters Procurement officials
  said that imposing a requirement that performance metrics be established at the Agency
  level would result in an inconsistent comparison of the data. However, the Agency could
  require strategic sourcing metrics at the Center and NSSC acquisition levels and use this
  information to assess whether Agency acquisitions are appropriately aligned with the
  goals of the Strategic Sourcing Program. In our view, Headquarters officials should, at a
  minimum, periodically review performance measurement data collected and reported by
  the Centers and the NSSC to help make determinations as to the continued effectiveness
  of current strategic sourcing initiatives and the potential applicability of Center-based
  initiatives Agency-wide.
  We consider the development and monitoring of strategic sourcing performance metrics
  to be an important business practice that would help ensure sourcing activities promote
  the Agency’s strategic goals. However, accurate information about the Agency’s success
  16
       At the close of our audit, an Office of the CIO official informed us that NASA’s IT spending had
       decreased by $800 million over the past 10 years as a result of a variety of initiatives, one of which was
       the strategically-sourced ACES contract. However, the OIG is currently performing a review of the
       contract and has identified preliminary concerns regarding any ACES-related savings.




REPORT NO. IG-14-010                                                                                                17
                                                                                                            RESULTS



     in meeting its strategic sourcing goals will not be possible unless performance is
     measured and personnel are held accountable for meeting articulated goals.
     Possible Underutilization of Strategic Sourcing Initiatives. Without performing routine,
     comprehensive spend analysis or regularly measuring the performance of strategic
     sourcing initiatives, NASA is unable to determine whether it is appropriately utilizing
     these mechanisms. Our audit identified several areas of particular concern with regard to
     possible underutilization of these initiatives.
     In a March 2013 report, the OIG identified that as of June 2012, NASA spent $25.7 million
     on 242 separate purchases of IT security assessment and monitoring tools as well as related
     annual maintenance costs across all levels of the organization.17 Specifically, the Office of
     the CIO spent $7.3 million to purchase and $1.8 million annually to maintain IT security
     assessment and monitoring tools while Chief Information Security Officers spent $5.9
     million to purchase and $2.2 million to annually maintain similar products. Organizational
     Computer Security Officials supporting project systems spent an additional $6.7 million to
     purchase and $1.8 million annually to maintain IT security assessment and monitoring
     tools. The OIG determined that in numerous instances these officials purchased the same
     or similar tools for the nine IT security control areas, a strong indication of missed
     opportunities for consolidation of procurements through NASA’s Enterprise License
     Management Team, one of the Agency’s strategic sourcing initiatives. In our view, had
     NASA officials performed a comprehensive spend analysis at an Agency-wide level, they
     would have identified multiple opportunities for consolidation and reduced duplication
     among IT security assessment and monitoring tools.
     Further, we found that while NASA has adopted the Federal Strategic Sourcing Initiative
     solution for domestic package delivery, it does not do so consistently and continues to use
     alternative sources for express and domestic delivery services. Specifically, even though
     the current Federal Strategic Sourcing Initiative contractor is UPS, NASA still utilizes
     FedEx and other contractors to provide domestic delivery services. We discussed this
     practice with Center logistics representatives and were told that while Center shipping
     departments attempt to use UPS, if UPS is not able meet NASA’s needs then an alternative
     vendor is used.18 In March 2013, NASA reported to OMB that it had spent approximately
     $1.8 million on domestic delivery services during FY 2012, of which $160,866 was spent
     using the Federal Strategic Sourcing Initiative carrier for domestic delivery – or 9 percent
     of its domestic delivery expenses. While we understand that the Federal Strategic Sourcing
     Initiative solution is limited to express and ground delivery of small packages, we question
     whether this low adoption rate illustrates an unnecessarily high utilization of other vendors
     for domestic deliveries that could and should be handled by UPS. Because NASA does not
     consistently track detailed utilization data related to its strategically sourced commodities,
     Procurement officials were unable to explain the 9 percent rate.
     17
          “NASA’s Process for Acquiring Information Technology Security Assessment and Monitoring Tools”
          (IG-13-006, March 18, 2013).
     18
          Because the Federal Strategic Sourcing Initiative contract with UPS is limited to small packages under
          150 pounds, NASA must use other procurement vehicles for larger packages and cargo shipments.




18                                                                                         REPORT NO. IG-14-010
RESULTS



  Similar to delivery services, we also found that Centers continue to use alternative
  sources to procure office supplies. Specifically, while the current Federal Strategic
  Sourcing Initiative solution for office supplies includes a large number of vendors, we
  identified office supplies being purchased using other external vendors.19 For example,
  in March 2013, NASA reported to OMB that it had spent approximately $6 million on
  office supplies during FY 2012, of which approximately $1.3 million, or 22 percent, was
  spent using the Federal Strategic Sourcing Initiative solution. However, four of the larger
  NASA Centers are not included in the data reported to OMB because they utilize Center-
  wide support service contracts that include the purchase of office supplies as part of the
  contract. This has a dilutive effect on NASA’s actual rate of adoption reported to OMB,
  and we question whether this rate illustrates an unnecessarily high utilization of other
  vendors and contracts for office supplies that could and should be acquired using the
  Federal Strategic Sourcing Initiative solution.

  We discussed this practice with Headquarters Procurement representatives and were told
  that because NASA’s Centers operate autonomously, procurements are handled
  differently across the organization. NASA Centers have multiple options to procure
  office supplies in addition to the Federal Strategic Sourcing Initiative solution, including
  local Center-utilized vendors and Center-wide support service contracts under which a
  contractor purchases office supplies and warehouses them for centralized distribution.20
  Finally, Centers co-located with U.S. military facilities have the option to purchase office
  supplies through their facility’s military supply center.

  Headquarters Procurement officials said they instruct Centers to give Federal Strategic
  Sourcing Initiative solutions “mandatory consideration” when purchasing office supplies
  but do not require them to use the Federal Strategic Sourcing Initiative solution.
  Specifically, they wanted to provide Centers with flexibility in obtaining the best price,
  whether through Federal Strategic Sourcing Initiative or other sources; comfort with
  using existing contracts and vendors to acquire supplies; a desire to support local
  suppliers; and the ability to achieve other socioeconomic initiatives such as providing
  business to service-disabled veteran-owned, historically underutilized business zones, and
  women-owned small business concerns. However, this flexibility has resulted in
  confusion at the Center level and the freedom to unilaterally deviate from the intent of the
  strategic sourcing initiative. Specifically, Center procurement officials told us that they
  could not explain what Headquarters meant by “mandatory consideration” or how this
  consideration should be documented in its purchasing decisions. In response to our audit,

  19
       Through the Federal Strategic Sourcing Initiative, GSA awarded 15 blanket purchase agreements for
       office supplies. Thirteen of these agreements were awarded to small business entities in which many
       have participating dealer agreements with more than 120 small businesses.
  20
       According to NASA Procurement officials, in some cases these contractors received authorization to use
       Federal Strategic Sourcing Initiative contract pricing; however, each contract varies and none require the
       use of Federal Strategic Sourcing Initiative. Agency officials are therefore unable to confirm whether
       NASA is receiving credit for any purchases made by these logistics contractors under the Federal
       Strategic Sourcing Initiative blanket purchase agreements. For this reason, NASA has not included these
       purchases in its reporting to OMB, although it anticipates including it in future reporting.




REPORT NO. IG-14-010                                                                                                19
                                                                                         RESULTS



     Headquarters Procurement officials informed us that it is the position of the NASA
     Procurement Office that “mandatory consideration” is appropriate and will not change
     unless OMB requires by regulation the use of Federal Strategic Sourcing Initiative
     vehicles.

     NASA also missed earlier opportunities to use the Federal Strategic Sourcing Initiative
     for its wireless telecommunication and print management services, but still has the
     opportunity to do so in the future before entering into new contracts for those
     commodities. In 2008, when NASA began acquisition planning for a new IT end user
     services contract that included wireless telecommunications, NASA did not consider
     Federal Strategic Sourcing Initiative solutions to meet the Agency’s needs because it
     already had a contract in place for these services. In 2011, NASA told OMB that it
     would reconsider using the Federal Strategic Sourcing Initiative wireless solution when
     the new Federal Strategic Sourcing Initiative agreements for this solution were awarded if
     they were determined to be more cost effective. Therefore, prior to awarding its 2011 IT
     end user services contract, NASA should have compared the Federal Strategic Sourcing
     Initiative solution pricing against the proposed contract cost to identify which option
     offered the better price. The base period of NASA’s current end user services contract
     expires in 2015; as of September 2013, Headquarters Procurement officials had not yet
     completed their cost comparison analysis.

     Similarly, in July 2011, NASA informed OMB that it was not using the Federal Strategic
     Sourcing Initiative for print management because this service was provided under the
     Agency’s existing end user services contract but that it would evaluate and choose the
     most cost effective option once the second generation of GSA print management
     agreements were in place. Even though GSA established 11 new Federal Strategic
     Sourcing Initiative print management agreements in September 2011, as of September
     2013, Headquarters Procurement officials had not yet completed their cost comparison
     analysis. According to OMB personnel, increased use of Federal Strategic Sourcing
     Initiative commodities could allow GSA to negotiate better rates on their procurement
     agreements resulting in greater savings across the Federal Government.

     Strategic Sourcing Efforts Impaired by Limited Communication. NASA’s Strategic
     Sourcing Program plan provides an outline of the types of communication that need to
     occur within the Agency to achieve Program success. Key objectives of the
     communication plan include:

           managing expectations regarding NASA’s Strategic Sourcing Program;
           maintaining appropriate levels of communication with Program Stakeholders;
           providing relevant, accurate, and consistent information;
           generating and sustaining support for the Program; and
           establishing regular communications vehicles to support Program reporting
            requirements.



20                                                                         REPORT NO. IG-14-010
RESULTS



  NASA incorporated a training methodology into its Strategic Sourcing Program guidance
  to help ensure that officials involved in strategic sourcing (1) are familiar with the
  Program; (2) receive structured, documented training; and (3) support the goals of the
  Program. The Agency incorporated detailed training sessions into the plan with the goal
  of ensuring that Agency personnel were well-informed and equipped to manage a
  successful strategic sourcing program. While this communication and training
  framework is appropriate, we identified weaknesses in implementation that has impaired
  its success. For example, only limited support has been provided for the training
  conducted and there are varying degrees of awareness among the Center procurement
  community regarding the intricacies of the Program (such as how strategic sourcing is
  defined and how it should be implemented at NASA Centers).
  Resources Assigned to Strategic Sourcing. Although approximately 80 percent of
  NASA’s budget is used to procure various commodities, NASA has assigned
  responsibility for managing its Strategic Sourcing Program to a limited number of
  personnel as a “collateral duty” rather than assigning dedicated resources to this effort.
  Further, procurement representatives at NASA’s Centers stated that no one person at the
  Center level is specifically assigned responsibility for administering strategic sourcing
  efforts because the Headquarters Office of Procurement has not required Centers to
  implement strategic sourcing in support of the Agency-wide Program.
  From 2006 to March 2013, a single person was assigned the collateral duty of serving as
  the day-to-day point of contact regarding the Agency’s strategic sourcing efforts while
  another individual was assigned the collateral duty of ensuring Federal Strategic Sourcing
  Initiative compliance and oversight. In March 2013, during the course of our audit
  fieldwork, the Office of Procurement assigned additional staff to assist with strategic
  sourcing efforts; however, these assignments are collateral to their primary duties as well.
  As a result, the aggregate time dedicated to NASA’s strategic sourcing efforts is limited,
  impairing the Agency’s ability to update its 2006 Strategic Sourcing Program plan and
  limiting communications with Center and mission personnel to further NASA’s strategic
  sourcing efforts.
  Without committed resources, NASA cannot promote and expand its strategic sourcing
  initiatives, thereby missing the opportunity for increased efficiencies and greater cost
  savings. Further, absent policy direction from the Headquarters Procurement Office,
  Centers have not demonstrated the need to make strategic sourcing a priority.
  Communication of Program Instruction and Opportunities. NASA’s Strategic Sourcing
  Program plan states that NASA will build on its existing acquisition planning philosophy
  and implement a strategic sourcing effort that will contribute to a more efficient and
  effective Agency.21 However, 7 years after Program implementation, the only reference
  to strategic sourcing in the NASA Federal Acquisition Regulation (FAR) Supplement
  relates to simplified acquisition procedures and more specifically, purchase card
  21
       NASA Procedural Regulation 7120.5C, “NASA Program and Project Management Processes and
       Requirements.”




REPORT NO. IG-14-010                                                                             21
                                                                                                          RESULTS



     transactions.22 In our view, this does not demonstrate an appropriate level of support from
     senior management for Agency-wide implementation of its Strategic Sourcing Program.
     As previously mentioned, NASA does not mandate the use of Federal Strategic Sourcing
     Initiatives Agency-wide and has only encouraged Centers to give the Federal Strategic
     Sourcing Initiative solutions “mandatory consideration” when purchasing office supplies.
     Consequently, for the past 7 years NASA Procurement officials have continued to make
     purchases using existing contracts and vendors instead of fully adopting the available
     Federal Strategic Sourcing Initiative solutions. The inconsistent application of strategic
     sourcing across the Agency has also resulted in varying interpretations of how strategic
     sourcing is defined at NASA, what Center procurements are considered strategic sourcing
     initiatives, and what initiatives exist throughout the Agency that Centers could join.
     Specifically, Center procurement officials cited a lack of communication between
     Headquarters and their offices related to strategic sourcing.
     Further, NASA has no mechanism in place to readily identify and communicate to the
     procurement community all active NASA-wide, multi-Center, program specific, and Center-
     awarded strategic sourcing vehicles. NASA procurement officials stated that they currently
     must search a variety of sources such as NSSC’s procurement website, NASA’s Enhanced
     Procurement Data Warehouse database, the Federal Procurement Data System, and other
     Federal agency websites to identify whether an existing strategic sourcing vehicle could be
     used. As a result, NASA Procurement officials who are unaware of existing strategic
     sourcing contracts may unknowingly make an award for the same product or service for
     which NASA has already established a strategic sourcing contract. Consequently, NASA
     may have multiple contracts for a product or service that could otherwise be strategically
     sourced through a single vendor, resulting in a duplication of effort, a waste of personnel
     resources, and a loss of potential cost savings. An Agency-wide strategic sourcing database
     could centralize and track performance-related data and potentially alleviate the burden of
     manually compiling information in response to OMB data calls.

Strategic Sourcing Lessons Learned and Best Practices
     DOE faced multiple challenges when implementing its strategic sourcing program,
     including working with a decentralized organizational structure and culture of autonomy,
     the agency’s extensive use of contractors, limited availability of detailed procurement
     information, and difficulties in establishing performance metrics and adopting Federal
     Strategic Sourcing Initiative solutions. However, in spite of these challenges, DOE has
     implemented a strategic sourcing program that has resulted in significant cost savings and
     operating efficiencies. According to officials we interviewed, over the past 3 years
     DOE’s strategic sourcing program has saved the agency approximately $980.7 million
     (see Figure 5).

     22
          NASA FAR Supplement, Part 1813, Simplified Acquisition Procedures, section 1813.301-77 (b) “Office
          of Management and Budget Circular A-123, Appendix B requires each agency to use strategic sourcing
          to the maximum extent. Cardholders shall support Agency and center strategic sourcing initiatives when
          placing purchases.”




22                                                                                       REPORT NO. IG-14-010
RESULTS



                     Figure 5. DOE’s Strategic Sourcing Savings (in Millions)23
            400

            350                                 334.5
                          324.5                                       321.7
            300

            250
                                                                                           195
            200

            150

            100

             50

               0
                        FY 2010               FY 2011               FY 2012              FY 2013

  Source: DOE.

  Performance of Spend Analysis. DOE does not maintain a central database of strategic
  sourcing procurement information. However, each organization within the Agency
  performs spend analyses on their own procurement actions using data obtained from
  GSA’s Federal Procurement Data System and other spend-related analytic tools. This
  data is then provided to each organization’s managers for consideration. DOE currently
  requires its contractors to perform a spend analysis and is working to impose the same
  requirement for sub-contractors. Under DOE’s strategic sourcing initiative, the Supply
  Chain Management Program was established to make individual contractor acquisition
  functions less reactive and more integrated and strategically driven to ensure maximum
  value for every dollar spent. Under this initiative, a spend analysis is periodically
  performed and reviewed to reassess the viability of the strategic sourcing effort.24 The
  Administration’s Supply Chain Management Center manages the program to leverage the
  purchasing power of the seven Administration Management & Operations contractor sites
  and to realize pricing and process efficiencies through enterprise-wide strategic sourcing
  efforts for commodities such as personal computers, fuels, and travel services.
  Further, DOE established an Integrated Contractor Procurement Team tasked with
  reviewing the various types of acquisitions in order to identify potential strategic sourcing
  initiatives from the contractor’s perspective. Additionally, DOE established another team
  of contractors that reviews reporting tools, definitions, private industry best practices, and
  metrics in an effort to identify opportunities for enhancing the use of strategically sourced
  commodities. These teams report the results to DOE’s Strategic Programs Division. As
  a result, while DOE conducts spend analysis at the commodity level, this analysis is
  23
       The FY 2013 target is 3.25 percent of $6 billion in anticipated total spending.
  24
       Supply chain management is the integration of key business processes from end user through original
       supplier that provide valuable products, services, and information to customers and other stakeholders.




REPORT NO. IG-14-010                                                                                             23
                                                                                                           RESULTS



     comprehensive and recurring in nature, offering the Department opportunities to enhance
     its strategic sourcing efforts and maximize cost savings and procurement efficiencies.
     NASA similarly spends a great deal of its budget on contractor services; as such, we
     believe DOE’s establishment of contractor-led teams tasked with implementing strategic
     sourcing initiatives at the individual contract level and among its contractors to be a best
     practice that could help to enhance NASA’s own strategic sourcing efforts.

     Adoption of Federal Strategic Sourcing Initiatives. One of the strengths we identified
     with DOE’s strategic sourcing program is that Department offices perform an analysis to
     compare prices between Federal Strategic Sourcing Initiatives and
     non-Federal Strategic Sourcing Initiative vendors prior to awarding any contracts to
     identify which option would maximize cost savings. DOE found that depending on the
     commodity, the Federal Strategic Sourcing Initiative price was not always the lowest and
     therefore non-Federal Strategic Sourcing Initiative vendors were used when a lower price
     could be negotiated. In spite of this, DOE still uses Federal Strategic Sourcing Initiative
     vendors to acquire approximately 46 percent of its office supplies. In addition,
     approximately 20 percent of its domestic delivery services are acquired through the
     Federal Strategic Sourcing Initiative vendor. Given NASA’s low adoption rate of
     Federal Strategic Sourcing Initiative solutions for office supplies and domestic delivery,
     we consider DOE’s analysis of pricing prior to the commodities acquisition to be a best
     practice that NASA could implement in order to maximize cost savings.
     Measurable and Performance Matrixes. Finally, we found that DOE has established
     specific performance goals and measures for strategic sourcing to quantify enterprise-
     wide cost savings. According to representatives from the Strategic Programs Division,
     one of DOE’s strategic sourcing goals is to execute expanded use of Federal Strategic
     Sourcing Initiatives while continuing to focus on Contractor Supply Chain Council
     activities to achieve a 3.25 percent cost savings against actionable spend by
     September 2013.25
     Further, DOE developed performance metrics to periodically analyze and report the
     outcomes of its strategic sourcing program. Through these metrics, DOE captures
     information at the organizational level regarding:
                 the previous price paid for a commodity;
                 negotiated savings;
                 independent cost estimate/comparison to requisition estimate;
                 documented rebates; and
                leveraged buying and savings from agreements, volume discounts, transactional
                 savings from using government purchase card, and other savings approved by the
                 contracting officer.

     25
          As of mid-September 2013, DOE officials informed us that they are on target to meet this goal.




24                                                                                         REPORT NO. IG-14-010
RESULTS




  Each DOE organization and contractor completes a quarterly scorecard reporting on 10
  performance measures related to strategic sourcing initiatives. The scorecard data is sent
  to DOE’s Deputy Secretary for review and assessment. Since NASA has not established
  performance metrics specific to strategic sourcing, we consider DOE’s development and
  implementation of performance metrics and its process of periodically analyzing and
  reporting the outcomes to senior management a best practice that would benefit NASA’s
  strategic sourcing initiatives and program as a whole.


Top Management Commitment Needed

  NASA’s decentralized organizational structure and its culture of autonomy have
  obstructed the Agency’s efforts to implement an effective Strategic Sourcing Program.
  Specifically, in an effort to respect Center and mission autonomy, Headquarters officials
  have not directed the use of the Agency’s Strategic Sourcing Program. However, while
  autonomy may be beneficial when developing NASA spaceflight projects, it can be
  counterproductive when it comes to purchasing common commodities across the Agency
  such as office supplies and software. In this period of budget austerity, NASA must
  identify additional opportunities for cost savings and one way to do so is to seek
  increased efficiencies in its procurement process. Strong executive leadership is needed
  to ensure that personnel Agency-wide understand the commitment of NASA management
  to the concept of strategic sourcing and to engage procurement personnel at all levels to
  seek opportunities to enhance procurement practices through the use of strategic
  sourcing.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

  To strengthen NASA’s Strategic Sourcing Program and practices, we recommended that
  the Assistant Administrator for Procurement, with support from the Administrator and
  Chief Financial Officer:

  Recommendation 1. Revise NASA’s Strategic Sourcing Plan to: (a) identify and assign
  specific responsibilities for individuals, groups, or organizations within NASA that
  manage, administer, and report strategic sourcing efforts; (b) include a methodology for
  how spend analysis should be developed, analyzed, and used; (c) include a methodology
  to periodically identify Agency-wide strategic sourcing opportunities using current
  financial and procurement management information systems; and (d) require the periodic
  extraction and assessment of Agency-wide, inter-Center, and cross-organizational
  spending data to ensure the Agency is receiving the best value for products and services.




REPORT NO. IG-14-010                                                                           25
                                                                                          RESULTS



        Management’s Response. The Assistant Administrator for Procurement concurred,
        stating that NASA is in the process of updating its Strategic Sourcing Plan and will
        include guidance addressing our recommendation in the revised Plan. He also
        indicated that the Headquarters Office of Procurement briefed the proposed plan to
        the Center Procurement Offices in December 2013, and will be meeting with Center
        Procurement Representatives and other acquisition officials to develop approaches to
        the recommendations that are achievable and meet the Agency's needs.
        Evaluation of Management’s Response. Management’s proposed action is
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification that the Plan has been revised
        to address our recommendation.
     Recommendation 2. Perform a comprehensive spend analysis of all procurement
     activities across NASA in order to identify potential strategic sourcing candidates and
     assess changes in Agency-wide spending patterns.
        Management’s Response. The Assistant Administrator for Procurement
        nonconcurred with our recommendation. In his response, the Assistant Administrator
        stated that NASA is fully committed to continuing its participation in the Federal
        Strategic Sourcing Initiatives and identifying strategic sourcing activities by
        conducting spend analyses on select commodities and services. In addition, he
        advised that several NASA Centers have begun a comprehensive spend analysis of
        their programs and noted several other efforts underway that will help inform Agency
        leadership on the best ways to procure commodities and services.
        Evaluation of Management’s Response. Although we appreciate the ongoing
        Center-based efforts and the Agency’s commitment to Federal Strategic Sourcing
        Initiatives, we continue to believe that NASA would benefit from an Agency-wide
        spend analysis. Accordingly, our recommendation remains unresolved and we will
        continue to work with the Agency to implement the intent of our recommendation.
     Recommendation 3. Define and track uniform performance goals and measures for
     NASA’s strategic sourcing activities Agency-wide and make the use of the metrics a
     requirement for assessing the success of the Agency’s Strategic Sourcing Program.
        Management’s Response. The Assistant Administrator for Procurement concurred
        with our recommendation. He noted that the Agency uses two Cross-Agency
        Priorities goals established by OMB to assess the success of its strategic sourcing
        activities and stated that NASA will include guidance on defining and tracking
        performance goals and measures for strategic sourcing activities in its revised
        Strategic Sourcing Plan.
        Evaluation of Management’s Response. Management’s proposed actions are
        responsive to our recommendation. Therefore, we consider the recommendation
        resolved and will close it upon receipt and verification of the revised Plan.



26                                                                          REPORT NO. IG-14-010
RESULTS



  Recommendation 4. Perform a review to determine if NASA organizations are utilizing
  strategically sourced commodities, such as office supplies and contract closeout services
  to the greatest extent practicable.

      Management’s Response. The Assistant Administrator for Procurement partially
      concurred with our recommendation, stating that NASA will review the use of
      strategic sourcing for select commodities. He also indicated that the NASA
      Headquarters Strategic Sourcing Team will continue to work with other NASA
      organizations to encourage the use of strategically sourced commodities.

      Evaluation of Management’s Response. We find management’s proposed actions
      responsive to the intent of our recommendation. Therefore, the recommendation is
      resolved and will be closed upon receipt and verification of the proposed corrective
      actions.

  Recommendation 5. Develop and communicate the existence of a centralized
  mechanism for providing the NASA procurement community with Agency-wide strategic
  sourcing information, to include a listing of all NASA Strategic Sourcing Program efforts
  that can be considered during the procurement planning process to fully leverage existing
  strategic sourcing vehicles.

      Management’s Response. The Assistant Administrator for Procurement concurred
      with the recommendation, stating that NASA maintains a website to communicate
      activities related to strategic sourcing Agency-wide. The Assistant Administrator
      further stated that the webpage will be updated to include the revised Agency
      Strategic Sourcing Plan and a listing of all NASA Strategic Sourcing activities. In
      addition, the Office of Procurement and the Headqurters Strategic Sourcing Team
      will provide training to Center personnel on how to expand use of strategic sourcing
      vehicles where practicable and appropriate. The Office of Procurement will also
      continue to review strategic sourcing efforts at the Centers as part of Procurement
      Management Reviews and Procurement Status Meetings.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of the proposed corrective
      action.

  Recommendation 6. Incorporate into NASA policy the required use of strategic
  sourcing initiatives to the maximum extent possible for NASA acquisitions and require
  the documentation of decisions made when strategic sourcing initiatives are not used.

      Management's Response. The Assistant Administrator for Procurement
      nonconcurred with our recommendation, stating that while NASA supports strategic
      sourcing and agrees it offers significant benefits when properly applied, it is
      premature and possibly unnecessary to consider changes to the NASA FAR
      Supplement or other policy to require the use of strategic sourcing initiatives to meet


REPORT NO. IG-14-010                                                                            27
                                                                                       RESULTS



     NASA’s mission needs. The Assistant Administrator noted that OMB has not issued
     regulations requiring the use of Federal Strategic Sourcing Initiative vehicles.
     Further, he stated that as NASA continues to analyze strategic sourcing opportunities,
     he may issue guidance with respect to use of specific Agency-wide contracts. For
     example, NASA issued policy on the use of the Enterprise License Management
     Team Program for enterprise software licenses. Finally, he stated that strategic
     sourcing is a component of acquisition planning and, in fact, can be considered
     inherent in the acquisition planning process.

     Evaluation of Management’s Response. We continue to believe that NASA would
     benefit from adopting policy requiring the use of strategic sourcing initiatives to the
     maximum extent possible and a requirement to document decisions not to use
     strategic sourcing initiatives. Accordingly, the recommendation remains unresolved
     while we continue to work with the Agency to implement the intent of our
     recommendation.




28                                                                      REPORT NO. IG-14-010
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from August 2012 through November 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  To understand the Federal initiative for strategic sourcing, we interviewed OMB’s Office
  of Federal Procurement Policy’s Lead Strategic Sourcing Executive and the General
  Service Administration’s Program Director for Federal Strategic Sourcing. We also
  interviewed representatives from NASA Headquarters Office of the CFO and Office of
  Procurement and the NSSC’s procurement office. To obtain an initial center perspective
  on strategic sourcing, we interviewed representatives from the Glenn Research Center,
  Goddard Space Flight Center, and Stennis Space Center procurement and logistics
  offices. Later, we obtained information on all nine centers’ strategic sourcing efforts
  through a questionnaire issued to the procurement offices and follow-up discussions. We
  reviewed the Headquarters Office of Procurement’s NASA Strategic Sourcing Program
  plan, reports to OMB, and various documents related to strategic sourcing and
  procurement efforts from 2005 through 2013 as well as applicable documents from the
  centers.

  We also conducted interviews with the DOE procurement officials to discuss the design
  of their current strategic sourcing initiatives and to identify lessons learned for
  benchmarking purposes that relate to NASA.

  Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
  course of our audit work:

         Chapter 18 of Title 48, Code of Federal Regulations, “NASA FAR Supplement,”
          November 1, 2004

         Executive Order 13589, “Promoting Efficient Spending,” November 9, 2011

         OMB Circular A-123 Appendix B, “Improving the Management of Government
          Charge Card Programs,” January 15, 2009

         OMB Memorandum, “Implementing Strategic Sourcing,” May 20, 2005




REPORT NO. IG-14-010                                                                          29
                                                                                      APPENDIX A



           OMB Office of Federal Procurement Policy Memorandum, “Strategic Sourcing
            Progress,” May 22, 2007

           OMB Office of Federal Procurement Policy Memorandum, “Clarifying Chief
            Acquisition Officer Roles and Responsibilities,” October 18, 2012

           OMB Memorandum M-13-02, “Improving Acquisition through Strategic
            Sourcing,” December 5, 2012

           NASA Procurement Notice 04-75, “Use of Enterprise License Management Team
            (ELMT) Program,” April 15, 2013

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.


Review of Internal Controls

     We reviewed Federal regulations and NASA policies and procedures to determine
     NASA’s internal controls for ensuring effective implementation of strategic sourcing
     initiatives. We analyzed the execution of the policy requirements as it related to the
     internal control structure surrounding identification, strategy development, strategy
     implementation, management and administration, and performance measurement. The
     control weaknesses we identified are discussed in the Results section of this report. Our
     recommendations, if implemented, will correct the identified control weaknesses.


Prior Coverage

     The NASA OIG has issued one report of particular relevance to the subject of this report
     and GAO has issued seven reports, in addition to conducting three subject-specific
     testimonies. Unrestricted reports can be accessed at
     http://oig.nasa.gov/audits/reports/FY13/index.html and http://www.gao.gov, respectively.

     NASA Office of Inspector General

     “NASA’s Process for Acquiring Information Technology Security Assessment and
     Monitoring Tools” (IG-13-006, March 18, 2013)

     Government Accountability Office

     “Strategic Sourcing: Improved and Expanded Use Could Provide Significant
     Procurement Savings” (GAO-13-765T, July 15, 2013)

     “Strategic Sourcing: Leading Commercial Practices Can Help Federal Agencies Increase
     Savings When Acquiring Services” (GAO-13-417, April 15, 2013)


30                                                                         REPORT NO. IG-14-010
APPENDIX A



  “Strategic Sourcing: Improved and Expanded Use Could Provide Procurement Savings
  for Federal Information Technology” (GAO-13-408T, February 27, 2013)

  “Strategic Sourcing: Improved and Expanded Use Could Save Billions in Annual
  Procurement Costs” (GAO-12-919, September 20, 2012)

  “Strategic Sourcing: Office Supplies Pricing Study Had Limitations, but New Initiative
  Shows Potential for Savings” (GAO-12-705T, June 7, 2012)

  “Strategic Sourcing: Office Supplies Pricing Study Has Limitations, but New Initiative
  Shows Potential for Savings” (GAO-12-178, December 20, 2011)

  “Opportunities to Reduce Potential Duplication in Government Programs, Save Tax
  Dollars, and Enhance Revenue” (GAO-11-318SP, March 1, 2011)

  “Best Practices: Using Spend Analysis to Help Agencies Take a More Strategic
  Approach to Procurement” (GAO-04-870, September 16, 2004)

  “Improved Knowledge of DOD Service Contracts Could Reveal Significant Savings”
  (GAO-03-661, June 9, 2003)

  “Taking a Strategic Approach Could Improve DOD’s Acquisition of Services”
  (GAO-02-230, January 18, 2002)




REPORT NO. IG-14-010                                                                       31
                       APPENDIX B




     MANAGEMENT COMMENTS




32            REPORT NO. IG-14-010
APPENDIX B




REPORT NO. IG-14-010   33
              APPENDIX B




34   REPORT NO. IG-14-010
APPENDIX B




REPORT NO. IG-14-010   35
              APPENDIX B




36   REPORT NO. IG-14-010
APPENDIX B




REPORT NO. IG-14-010   37
                                                                               APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer
     Chief Financial Officer
     Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Acting Executive Director, NASA Shared Services Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




38                                                                    REPORT NO. IG-14-010
Major Contributors to the Report:
   Laura B. Nicolosi, Director, Mission Support Directorate
   Joseph A. Shook, Project Manager
   Lynette A. Westfall, Audit Team Leader
   Bobbie Wells, Senior Auditor
   Annette Huffman, Program Assistant
   Sarah McGrath, Editor




REPORT NO. IG-14-010                                          39
                                                                                    JANUARY 15, 2014
                                                                        REPORT No. IG-14-010




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
